No. 20-549

LE ET]
IN THE

SUPREME COURT OF THE UNITED STATES

JOHN FARROW and JEROME WADE,

Petitioners,
v.

CONTRA COSTA COUNTY,

Respondent,

On Petition for a Writ of Certiorari
to the Ninth Circuit Court of Appeals

PROOF OF SERVICE AND DECLARATION PURSUANT TO SUPREME

 

COURT RULE 29.5(c)
1. Iam over the age of 18 years and am not a party to this action.
2. I certify that on January 6, 2021, at the direction of counsel for Respondent, a

copy of the Opposition to Petition for Writ of Certiorari were served on each party
via First Class mail at the following address:

Christopher Martin, Esq.
607 Hearst Avenue
Berkeley, CA 94610
Telephone: 510.206.2142
Email: m305@icloud.com

Attorney for Petitioners
3. I swear under penalty of perjury that the foregoing is true and correct.

Executed this 14" day of January, 2021.

 
 

Tim Mitchell
DECLARATION
I, Tim Mitchell, declare as follows:

1. Iam a resident of the State of California, over the age of 18, and nota
party to this action. My business address is Office of the County Counsel, 1025
Escobar Street, Third Floor, Martinez, CA 94553.

2. On January 6, 2021, I served a copy of the Opposition to Petition for
Writ of Certiorari on the parties listed on the Proof of Service via First Class Mail
pursuant to Rule 29.5 of the United States Supreme Court.

3. I make this declaration in compliance with 28 U.S.C. section 1746.
I declare under penalty of perjury, under the laws of the United States of

America, that the foregoing is true and correct and that this declaration is executed
on January 14, 2021, at Martinez, California.

 

Tim Mitchell
